NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL




         MATERIAL LOSS REVIEW
                  OF
      ENSIGN FEDERAL CREDIT UNION
            Report #OIG-10-15
            September 23, 2010




             William A. DeSarno
             Inspector General


                 Released by:




              James W. Hagen
           Deputy Inspector General
CONTENTS


Section                                                   Page



ACRONYMS                                                         ii

EXECUTIVE SUMMARY                                            1
  Background                                                 3
  History of Ensign Federal Credit Union                     3

OBJECTIVES, SCOPE AND METHODOLOGY                            7

RESULTS IN DETAIL                                            9
    A. Why Ensign Federal Credit Union Failed                9
     B. NCUA Supervision of Ensign Federal Credit Union      16

APPENDICES
    A. Examination History                                   23
    B. NCUA Management Comments                              36




                                                                      i
ACRONYMS

AIRES      Automated Integrated Regulatory Examination Software
ALCO       Asset Liability Committee
ALLL       Allowance for Loan and Lease Loss
ALM        Asset Liability Management
CEO        Chief Executive Officer
CLF        Central Liquidity Fund
CUSO       Credit Union Service Organization
DOR        Document of Resolution
FCU Act    Federal Credit Union Act
FHLB       Federal Home Loan Bank
FPR        Financial Performance Reports
GAAP       Generally Accepted Accounting Principles
HELOC      Home Equity Lines of Credit
IRR        Interest Rate Risk
LTV        Loan-to-Value
LUA        Letter of Understanding and Agreement
MBL        Member Business Loan
MLR        Material Loss Review
NCUA       National Credit Union Association
NCUSIF     National Credit Union Share Insurance Fund
OIG        Office of Inspector General
OREO       Other Real Estate Owned
PCA        Prompt Corrective Action
QCR        Quality Control Review
RegFlex    Regulatory Flexibility Program
RFE        Risk-Focused Examination
TDR        Troubled Debt Restructuring
WCC        Work Classification Code




                                                                  ii
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Executive Summary

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
contracted with Moss Adams LLP to conduct a Material Loss Review (MLR) for the
Ensign Federal Credit Union (Ensign or the Credit Union). We reviewed Ensign to:
(1) determine the cause(s) of the Credit Union‟s failure and the resulting loss to the
National Credit Union Share Insurance Fund (NCUSIF); (2) assess NCUA‟s
supervision of the Credit Union; and (3) make appropriate recommendations to
prevent future losses. To achieve these objectives, we analyzed NCUA examination
and supervision reports and related correspondence, interviewed management and
staff from NCUA Regions I & V, and reviewed NCUA guidance. We also reviewed
Regions I & V policies and procedures, NCUA 5300 Call Reports, and NCUA
Financial Performance Reports (FPR).

We determined Ensign failed because its Board of Directors and management did
not implement appropriate risk management practices related to concentration and
credit risks. Specifically, management adopted a high-risk strategy that allowed
concentrations of up to 80 percent of the loan portfolio in loans secured by real
estate, making them vulnerable to the steep and rapid decline in Nevada property
values.

Additionally, management failed to ensure proper risk mitigation practices were in
place at the Credit Union. Management did not have a proper allowance for loan
loss methodology, allowed loan-to-value ratios on Home Equity Lines of Credit
(HELOC) loans up to 100 percent, and allowed for 40-year terms on mortgages.
Management also failed to implement an effective collection program or conduct
regular Asset Liability Management (ALM) meetings. Furthermore, management
created additional strain on the Credit Union by not formulating an effective business
strategy, committing to excessive fixed assets in the form of branch expansion, and
failing to control liquidity risk.

NCUA examiners determined, and we agree, that Ensign management:
       Practiced poor management and lacked adequate Board oversight; and

       Allowed large concentrations in mortgage loans.

We determined that despite examiners‟ concerns and recommendations for
improvement, management‟s inability to effectively manage the risks that their own
decisions had created eventually led to Ensign‟s failure.

Examiners followed NCUA guidance with regard to monitoring and frequency of
examinations. Although examiners properly identified the significant issues at
Ensign, we believe examiners did not sufficiently downgrade the Credit Union in a

                                                                                     1
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


timely manner. As a result, we believe examiners missed opportunities to mitigate
the loss to the NCUSIF.

This report does not contain recommendations, but provides observations and
suggestions. However, the OIG plans to issue an MLR capping report with
recommendations based on issues raised in this report as well as the other nine
Material Loss Reviews conducted by the OIG. As resources allow, the OIG may
also conduct more in-depth reviews of specific aspects of the NCUA‟s supervision
program and also make recommendations, as warranted.

Auditor observations made as a result of our review of Ensign‟s failure include:

       A documented secondary review by the Supervisory Examiner of the final
        CAMEL ratings prior to issuance to credit union management would ensure
        examination evidence gathered is sufficient, competent, and relevant, to
        reasonably support the ratings. In addition, NCUA could enhance its quality
        control review process by better defining the sampling strategy and criteria,
        the supervisory review procedures, and the follow up requirements to ensure
        conclusions, and enforcement actions are properly supported and more
        consistent between regions.

       The risk-focused examination process would benefit from the development of
        a stronger more specific process to better identify, analyze, and monitor loan
        concentrations during examinations, as well as between examinations.
        Consideration should also be given to whether to propose and/or change
        regulatory guidance to establish limits or other controls for concentrations that
        pose an unacceptable safety and soundness risk, and to determine an
        appropriate range of examiner response to high risk concentrations.

       The off-site monitoring process could be improved by placing more emphasis
        on quarterly monitoring of 5300 Call Reports. Specific monitoring triggers
        could be developed to more easily „red flag‟ areas to be investigated, as well
        as provide a specific time allocation. In addition, examiners need to better
        document and retain the analysis and specific procedures performed during
        their quarterly review of 5300 Call Reports.

       Re-emphasize to examiners the importance of evaluating management‟s due
        diligence over new and fast growing programs, as well as other areas of
        emphasis, to ensure appropriate analysis was considered by management
        and to provide support for examiner ratings.

NCUA management‟s comments can be found in Appendix B. We appreciate the
effort, assistance, and cooperation management and staff provided to us during this
review.

                                                                                        2
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Background

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
authorized Moss Adams LLP to conduct a Material Loss Review (MLR) for Ensign
Federal Credit Union (Ensign or the Credit Union), as required by Section 216 of the
Federal Credit Union Act (FCU Act), 12 U.S.C. 1790d(j).1 Ensign was a federally
chartered credit union, headquartered in Henderson, Nevada. Ensign was located in
NCUA‟s Region V until January 2009 when through an NCUA restructuring, the state
of Nevada was transferred to NCUA‟s Region I.

History of Ensign Federal Credit Union

Chartered in 1961, Ensign Federal Credit Union served employees and members of
the Church of Jesus Christ of Latter Day Saints in the Nevada counties of Clark,
Nye, and Lincoln. Ensign served approximately 8,000 members through five
branches in the Henderson, Nevada area.

The Credit Union focused heavily on residential real estate lending in the Las Vegas
metropolitan area. A significant number of these loans were originated prior to 2007,
when the values of residential real estate peaked in this area. The Las Vegas
metropolitan area experienced declines in real estate values of over 50 percent
between January 2007 and March 2009.2 Additionally, unemployment in the area
reached over 14 percent by September 2009.3 The combination of rapidly declining
real estate values and increasing unemployment led to increased loan delinquency
rates beginning in mid-2007. By mid-2008, losses on these loans began to increase
due to continuing economic decline in the area. Delinquency rates by September
2009 were in excess of 13 percent compared to less than one percent two years
earlier.

The December 2007 examination identified several problem areas including
monitoring and managing interest rate and liquidity risks; risky construction and
development lending; member business loan violations; lack of credit risk profiling
and risk mitigation; under funding of the Allowance for Loan and Lease Loss4 (ALLL)
account; and insufficient financial reporting to the Asset Liability Committee (ALCO)
and the Board of Directors. These items resulted in a composite CAMEL rating of 3.



1
  On July 21, the President signed into law the Wall Street Reform and Consumer Protection Act of 2010, raising
the threshold for future NCUA-OIG MLRs to $25 million.
2
  Source: National Association of Realtors
3
  Source: U.S. Bureau of Labor Statistics
4
  Allowance for Loan and Lease Losses is a valuation account established to recognize estimated loan
impairment before probable losses on individual loans have been confirmed resulting in a subsequent charge-off
or write-down. The ALLL is an accounting estimate of probable but unconfirmed asset impairment that had
occurred in the loan portfolio as of the financial statement date.

                                                                                                              3
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


NCUA‟s Region V conducted three supervisory contacts during 2008 and the
composite CAMEL rating remained at 3. The Credit Union‟s balance sheet was
heavily concentrated in real estate loans and during 2008, delinquency and charge-
off rates increased dramatically with nonperforming assets growing from six percent
at the beginning of 2008 to 13.5 percent one year later.

Examiners noted several violations of NCUA Rules and Regulations in the
December 2007 examination report. Specifically, examiners identified violations of
Parts 723.3, 723.8, and 723.16, which govern Member Business Loan (MBL)
limitations for Construction and Development loans, MBLs to one individual or
associated group, and aggregate MBLs, respectively. These were repeat violations
from the 2004 examination. Ensign also violated section 701.21(c)(4) of the FCU
Act by granting certain MBLs in excess of 15-year terms.

Examiners also noted Ensign violated NCUA Rules and Regulations section
701.36(a)(i) by continuing to invest in fixed assets subsequent to losing its
Regulatory Flexibility Program5 (RegFlex) eligibility and not obtaining a waiver from
the Regional Director to continue investing in fixed assets. Ensign‟s fixed asset ratio
was in excess of regulatory limits when examiners downgraded Ensign to a
composite CAMEL 3 during the December 2007, examination.

Throughout 2007 and 2008, home values within Ensign‟s field of membership area
rapidly declined and unemployment increased significantly, resulting in mounting
delinquencies and charge-offs for the credit union. Ensign reported a net operating
loss of $4 million during 2008, due primarily to $4.2 million in funding to the ALLL
account and the net worth ratio was reduced from 9.56 percent to 7.32 percent by
the end of 2008.

In February 2009, examiners conducted an examination and concluded Ensign was
in an “unsatisfactory condition” and gave the credit union a composite CAMEL rating
of 4 noting weak management, including a significant lack of planning, monitoring,
and controlling the Credit Union‟s risk areas. The examination cited several
Document of Resolution (DOR) matters for management to address, as well as the
issuance of a Letter of Understanding and Agreement (LUA) to Credit Union
management. Management signed the LUA on February 26, 2009, and agreed to
seek a merger partner.

As previously noted, in January 2009, Ensign and all other Nevada credit unions
were transferred and reassigned to Region I. As a result of the declining conditions
at Ensign, Region I assigned the Credit Union to its Division of Special Actions. As
delinquency and loan losses continued to escalate, and net worth continued to

5
  Regulatory Flexibility Program allows eligible credit unions to be exempted from all or part of specific
regulations if they meet specific parameters related to CAMEL ratings and net worth.

                                                                                                             4
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


deteriorate, it was clear by April 2009 that Ensign was in serious financial trouble
with little ability to improve. Examiners further downgraded Ensign to a composite
CAMEL 5 following the March 31, 2009, examination and by July 31, 2009, Ensign
had become “critically undercapitalized” with a net worth ratio of less than two
percent reported on its June 30, 2009, Call Report.

On November 13, 2009, NCUA closed Ensign and authorized the purchase and
assumption (P&A) of member share accounts by EDS Credit Union of Plano, Texas.
The loss to the NCUSIF is estimated not to exceed $30 million.

NCUA Examination Process

Total Analysis Process

NCUA uses a total analysis process that includes: collecting, reviewing, and
interpreting data; reaching conclusions; making recommendations; and developing
action plans. The objectives of the total analysis process include evaluating
CAMEL6 components and reviewing qualitative and quantitative measures.

NCUA uses a CAMEL rating system to provide an accurate and consistent
assessment of a credit union‟s financial condition and operations. The CAMEL
rating includes consideration of key ratios, supporting ratios, and trends. Generally,
the examiner uses the key ratios to evaluate and appraise the credit union‟s overall
financial condition. During an examination, examiners assign a CAMEL rating,
which completes the examination process.

Examiner judgment affects the overall analytical process. An examiner‟s review of
data includes structural analysis,7 trend analysis,8 reasonableness analysis,9
variable data analysis,10 and qualitative data analysis.11 Numerous ratios measuring
a variety of credit union functions provide the basis for analysis. Examiners must
understand these ratios both individually and as a group because some individual
ratios may not provide an accurate picture without a review of the related trends.

6
   The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and [L]iquidity/Asset-Liability Management.
7
   Structural analysis includes the review of the component parts of a financial statement in relation to the
complete financial statement.
8
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
9
   As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance
ratios.
10
   Examiners can often analyze an examination area in many different ways. NCUA‟s total analysis process
enables examiners to look beyond the “static” balance sheet figures to assess the financial condition, quality of
service, and risk potential.
11
   Qualitative data includes information and conditions that are not measurable in dollars and cents, percentages,
numbers, etc., which have an important bearing on the credit union‟s current condition and its future. Qualitative
data analysis may include assessing lending policies and practices, internal controls, attitude and ability of the
officials, risk measurement tools, risk management, and economic conditions.

                                                                                                                5
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Financial indicators such as adverse trends, unusual growth patterns, or
concentration activities can serve as triggers of changing risk and possible causes
for future problems. NCUA also instructs examiners to look behind the numbers to
determine the significance of the supporting ratios and trends. Furthermore, NCUA
requires examiners to determine whether material negative trends exist; ascertain
the action needed to reverse unfavorable trends; and formulate, with credit union
management, recommendations and plans to ensure implementation of these
actions.

Risk-Focused Examination Program

In 2002, NCUA adopted a Risk-Focused Examination (RFE) Program. Risk-focused
supervision procedures often include both off-site and on-site work that includes
reviewing off-site monitoring tools and risk evaluation reports. The RFE process
includes reviewing seven categories of risk: Credit, Interest Rate, Liquidity,
Transaction, Compliance, Strategic, and Reputation. Examination planning tasks
may include: (a) reviewing the prior examination report to identify the credit union‟s
highest risk areas and areas that require examiner follow-up, and (b) analyzing Call
Reports and direction of the risks detected in the credit union‟s operation and on
management‟s demonstrated ability to manage those risks. A credit union‟s risk
profile may change between examinations. Therefore, the supervision process
encourages the examiner to identify those changes in the profile through:

        Review of Call Reports;

        Communication with credit union staff; and

        Knowledge of current events affecting the credit union.

On November 20, 2008, the NCUA Board approved changes to the risk-based
examination scheduling policy, creating the 12-Month Program.12 NCUA indicated
these changes were necessary due to adverse economic conditions and distress in
the nation‟s entire financial structure, which placed credit unions at greater risk of
loss. The NCUA stated the 12-Month Program will provide more timely relevant
qualitative and quantitative data to recognize any sudden turn in a credit union‟s
performance.




12
  The 12-Month Program requires either an examination or a material on-site supervision contact within a 10 to
14-month timeframe based on risk-based scheduling eligibility.

                                                                                                            6
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Objectives, Scope, and Methodology
We performed this MLR as required by section 216 of the Federal Credit Union Act,
12 U.S.C. 1790d(j) for Ensign Federal Credit Union. Section 216(j) of the FCU Act
provides that the Inspector General must conduct a review when the NCUSIF has
incurred a material loss. For purposes of determining whether the fund has incurred
a loss that is “material,” a loss is material if it exceeds the sum of:

        $10,000,000;13 and

        An amount equal to 10 percent of the total assets of the credit union at the
         time in which the Board initiated assistance under Section 208 or was
         appointed liquidating agent.

The objectives of the MLR were to:

        Determine the causes of the Credit Union‟s failure and any material loss to
         the NCUSIF;

        Assess NCUA supervision of the institution, including implementation of the
         Prompt Corrective Action requirements of Section 208 of the FCU Act; and

        Make appropriate recommendations to prevent future losses.

The scope of this review included an analysis of NCUA examinations and the Credit
Union‟s transactions and activities from 2004 to 2009.

To achieve the objectives, our methodology included the following procedures:

        Completed a Risk Assessment based on review of NCUA examination files;

        Prepared a chronology of examination scope and procedures, comments, and
         corrective actions;

        Prepared data tables and analyses related to lending activities;

        Reviewed Board minutes;

        Summarized external audit findings and follow-up procedures;



13
   On July 21, 2010, the President signed into law the Wall Street Reform and Consumer Protection Act of 2010,
raising the threshold for future NCUA-OIG MLRs to $25 million.

                                                                                                            7
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


       Conducted interviews with NCUA officials involved at various levels in the
        examination process;

       Evaluated risk management and internal controls, including effectiveness of
        corporate governance, management oversight, and decision making;

       Performed loan quality procedures, particularly related to concentrations,
        underwriting, and documentation;

       Reviewed policies and procedures included in examination files related to
        investment quality, liquidity management, and earnings;

       Reviewed NCUA and Region V and Region I rules, regulations, and
        guidelines; and

       Assessed NCUA supervision as it relates to Ensign.

We used computer-processed data from NCUA‟s Automated Integrated Regulatory
Examination Software (AIRES) and NCUA online systems. We did not test controls
over these systems. However, we relied on our analysis of information from
management reports, correspondence files, and interviews to corroborate data
obtained from these systems to support our audit conclusions.

We conducted this audit from April through September 2010 in accordance with
Generally Accepted Government Auditing Standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on
our audit objective. We believe the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




                                                                                      8
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Results in Detail

We determined that Ensign Federal Credit Union management and Board of
Directors contributed directly to the Credit Union‟s failure. In addition, we
determined NCUA examiners could have reduced the loss to the NCUSIF had they
adequately assessed and more aggressively pursued resolution to issues related to
the Credit Union‟s high concentration and credit risk related to its real estate loan
portfolio.

A. Why Ensign Federal Credit Union Failed

Management‟s inadequate risk management and lack of Board oversight led to
Ensign‟s failure. Management of Ensign adopted strategies that created a high level
of risk, particularly related to concentration and credit, without the necessary risk
management policies and procedures to monitor and control these risks. Ensign
charged off in excess of $5.4 million in loans between January 1, 2008, and
October 31, 2009, 80 percent of which were related to real estate loans.

Concentration Risk

Ensign‟s Board and management created concentration risk in its real estate loan
portfolio as a result of its focus on loan growth. Specifically, Ensign created an
unsafe exposure to losses on real estate loans by growing the portfolio‟s
concentration to over 75 percent of total loans as early as 2004. These loans were
primarily in the Las Vegas metropolitan area, which experienced declines in real
estate values of over 50 percent between January 1, 2007, and March 31, 2009,
according to the National Association of Realtors. Additionally, unemployment in the
Las Vegas area hit over 10 percent by mid-2009.

The combination of rapidly declining real estate values and increasing
unemployment led to rapidly increasing delinquency rates beginning in mid-2007.
By mid-2008, loan losses began to climb as a result of continued economic decline
in the area. Delinquency rates at September 2009 were in excess of 13.6 percent
as compared to 0.30 percent two years earlier.

Chart A (below) illustrates Ensign‟s excessive concentration of first mortgage and
other real estate loans over the five-year period from December 2004 through June
2009. The level of real estate loan concentrations during this period was never
below 75 percent of the total loans, and at its peak reached 80 percent. Ensign‟s
real estate loan concentration was also significantly higher than its peers.




                                                                                        9
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Chart A

                          Real Estate Loans as a Percentage of Total Loans
                90.0%

                80.0%

                70.0%

                60.0%

                50.0%
                                                                                           Peer Average
                40.0%
                                                                                           Ensign
                30.0%

                20.0%

                10.0%

                 0.0%
                        12/31/2004 12/31/2005 12/31/2006 12/31/2007 12/31/2008 6/30/2009



NCUA defines concentration risk as “any single exposure or group of exposures with
the potential to produce losses large enough (relative to capital, total assets, or
overall risk level) to threaten a financial institution‟s health or ability to maintain its
core operations.”14 NCUA does not define optimal concentration levels; as
management is responsible for performing analysis over the portfolio composition
and establishing appropriate concentration limits.

As previously noted, Ensign management failed to understand the risks associated
with excessive concentrations. In addition, management did not have the tools in
place that would have helped control concentration levels. For example,
management did not have mechanisms in place to monitor and report to the Board
risk factors within the portfolio such as loan-to-value (LTV) amounts, credit score
tiers, fixed and variable rate amounts, and geographical concentrations.

During discussions with examiners, we learned Ensign management and its Board
were reluctant to reduce the credit union‟s concentration in real estate loans
because they did not perceive these loans as being risky. There was also little
evidence in the monthly Board minutes to suggest that management was actively
monitoring the concentration levels and the associated risks.




14
     Letter to Credit Unions, No.10-CU-03, “Concentrations,” issued March 2010.

                                                                                                          10
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Credit Risk

We determined Ensign management failed to monitor and control the credit risk
associated with its lending activities and used a flawed ALLL methodology.
Additionally, the Credit Union‟s lenient lending policy allowed LTV ratios on HELOCs
of up to 100 percent and 40-year terms on mortgages.

NCUA guidance requires the Boards of Directors of federally-insured credit unions to
ensure the credit unions have controls in place to consistently maintain the ALLL in
accordance with the credit union‟s stated policies and procedures, generally
accepted accounting principles, and ALLL supervisory guidance. We found no
evidence Ensign‟s Board reviewed the ALLL during monthly Board meetings.
Specifically, we found Ensign‟s Board did not adequately monitor management‟s
process to determine the ALLL. Additionally, we determined examiners identified
several weaknesses in the ALLL methodology that were not corrected or addressed
by the Board or management. These weaknesses included a lack of review of
individual loans for specific impairments or any environmental or qualitative factors
in the ALLL calculation, despite the declining Nevada real estate market and rising
loan delinquencies.

Ensign management‟s policy to allow HELOCs to be originated at amounts up to 100
percent of the value of the underlying collateral greatly contributed to its large
losses. Examiners found this to be an unsafe and unsound practice when combined
with the excessive decline in the Las Vegas area real estate market.

Ensign management‟s policies also allowed for mortgage terms in excess of 30
years, specifically up to 40 years. The Board and management allowed these loans
to be originated without properly understanding or properly monitoring the increased
interest rate risk (IRR)15 associated with these loans.

Examiners identified errors in reporting to the ALM committee, which resulted in the
committee believing there was a smaller amount of 40-year mortgages. As a result,
the committee made inappropriate decisions when matching liabilities to these
assets. Examiners identified an under-reporting of these loans in the amount of
approximately $17 million. The reporting errors served to increase the risk
environment, ultimately limiting management‟s ability to control risks.

Management also failed to implement an effective collection program. Examiners
noted that, despite the material increase in delinquency and charge-off amounts, the
collection department was staffed by only two collectors who did not have significant

15
   NCUA policy defines IRR as the potential decline in earnings and net worth arising from changes in interest
rates. This risk generally occurs because a credit union may have a disproportionate amount of fixed and
variable rate instruments on either side of the balance sheet. Thus, as interest rates change, the earnings
stream or dividend expense on variable rate balances will change while fixed rate balances will remain the same.

                                                                                                            11
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


experience. Additionally, we found no evidence in the Board minutes that
management provided timely reporting of the delinquencies to the Board, a clear
indication of a lack of oversight. The weak collection practices at Ensign likely
contributed to the large delinquencies, but were not a direct cause of the failure.

As a result of management‟s inability to manage and control its concentration and
credit risk, Ensign experienced significant losses in its real estate loan portfolio.
Between January 1, 2008, and October 31, 2009, Ensign charged off in excess of
$5.4 million in loans, with 80 percent coming from the real estate portfolio. Chart B
(below) provides a detailed breakout of charge-offs by loan type.

Chart B


                                 Charge-Offs by Loan Type


                                            7%
                                      1%             11%

                                                                              Auto
                                                                              Unsecured
                              80%
                                                                              Real Estate
                                                                              Other




        Source: Ensign Board Packets and 5300 Call Reports for 2008 - 2009.

Oversight and Risk Management

We determined management and Board oversight as well as management‟s poor
risk management practices did not effectively monitor or control Ensign‟s overall risk.

Much of the losses at Ensign were due to insufficient income being generated
because of an increase in fixed assets during the five years preceding its failure.
Although concentration and credit risk greatly contributed to its losses, Ensign was
operating at a net loss on a monthly basis from basic operations. Despite
management taking steps to reduce expenses in the year prior to failure, expenses
could not be reduced enough to restore profitability.




                                                                                            12
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Under an ill-timed expansion strategy adopted by management and the Board, the
Credit Union expanded from two to five branches from 2004 through 2009. Total
fixed assets, including operating leases, totaled $11.8 million by the date of failure.
This represented 11 percent of total assets. The level of fixed assets in relation to
the total assets was outside of regulatory limits; however, Ensign was given a waiver
under the NCUA‟s Regflex program as long as the Credit Union maintained a
composite CAMEL rating of 2 or better.

The increase in branches also led to an increase in operating expenses. The Credit
Union owned two branches, the main headquarters in Henderson, Nevada with a
book value of $5.7 million and the Southwest branch, with a book value of $1.8
million. The other three branches were leased under restricted lease agreements
with no escape clauses. This made the possibility of breaking the leases cost
prohibitive. Additionally, the decrease in the market values of the owned buildings
would have resulted in significant losses if a sale was completed.

Ensign had a net loss of $4 million in 2008 with an additional $10 million through
September 2009. While the majority of these losses were attributable to the
provision and Other Real Estate Owned (OREO) expenses, the Credit Union was
still not generating positive income without these items. This was primarily due to
acceleration in fixed asset growth, which increased operating expenses and
decreased income earning assets. This mismanagement of the balance sheet
placed significant strains on Ensign‟s ability to cope with the declining economic
conditions.

In addition to the fixed asset growth, Ensign was placed in a position of having to sell
performing first mortgage loans in 2008 and 2009 and had unplanned borrowings
and high cost CDs to satisfy liquidity problems. This negatively impacted the yield
on assets and the cost of funds. Operating expenses escalated as a result of
increased branch facilities and collection expenses increased as default rates
climbed. An additional effect of increased delinquencies was the high provision
expenses. All of these items resulted in decreased return on assets and, ultimately,
a deficit in retained earnings.

Management also demonstrated poor liquidity strategies. Management accepted a
$12 million share account from one member in December 2007 and the ALCO did
not establish a contingency plan in the event this money was withdrawn. In January
2009, the member requested to close this account but Ensign did not have sufficient
liquidity to process the withdrawal. With NCUA‟s assistance, Ensign obtained a
$12.5 million 30-day loan from the Central Liquidity Fund (CLF). With their options
limited due to poor planning, management sold $6 million worth of 30-year fixed rate
real estate loans, $500,000 worth of investments, and solicited $8 million in
nonmember deposits in order to repay the loan. The Credit Union did not incur


                                                                                      13
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


losses on the asset sales; however, these moves reduced the net interest margin
leading to increased operating losses each month in 2009.

Management and the Board did not have a sound, written business plan. Because
of this lack of direction, they made poor strategic decisions in the years leading up to
the failure, which included:

       Investing in a concentration of long-term fixed rate mortgages, $16 million in
        40-year terms for example, without properly evaluating liquidity and interest
        rate risks;

       Opening new branches without properly evaluating the effect on expenses
        and the balance sheet;

       Approving two large member business loans ($2.2 million and $3.6 million),
        one of which represented 25 percent of net worth when it was approved, and
        ultimately foreclosed, costing the Credit Union over $1.5 million in losses due
        to property devaluations;

       Inaccurate budgeting practices, which in the 2009 budget included projected
        asset growth that was inconsistent with the negative share growth Ensign
        experienced during 2008; and

       Approved unsupported budget strategies, including operating expenses that
        were budgeted well below actual figures with no supporting plan for how
        management would achieve their goals.

Examiners noted that, in general, senior management was late to recognize and
address problem areas. Departments were not integrated properly and the ALCO
function was severely lacking. Balance sheet risk management did not promote
integration of planning, profitability, safeguarding of net worth, and risk management.
Management continued to make decisions based on reactionary instincts rather than
being proactive. Improvements were made during and subsequent to the 2009
examination; however, the improvements were not significant enough to turn the
course of Ensign‟s financial performance.

We learned through interviews and examination reports that NCUA officials believed
that Ensign‟s management team was inexperienced and ill-equipped to effectively
address and resolve the Credit Union‟s problem areas. In addition, NCUA officials
indicated Ensign management needed the constant presence of the NCUA to help
make decisions. Examiners believed management was reactive and lacked the
expertise to analyze the Credit Union‟s risks and implement corrective action.



                                                                                     14
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Examiners noted Ensign‟s chief executive officer (CEO) lacked leadership and
initiative; attributes examiners indicated were systemic throughout the Credit Union.

Further, examiners indicated they essentially had to direct Credit Union
management to make basic decisions. For example, examiners:

       Provided the recommendation to sell mortgages and investments, and obtain
        nonmember deposits to meet the CLF loan obligation;

       Directed management to establish a system to market to large shareholders
        who were threatening to close their accounts by offering to meet competitors‟
        rates;

       Directed management to hire an experienced collector to address the growing
        delinquency and charge-offs;

       Directed the Credit Union to bring the servicing of the MBL portfolio in-house
        because of the deteriorating servicing by the Credit Union Service
        Organization (CUSO); and

       Directed the Credit Union to reduce unnecessary staff.

While we acknowledge the unprecedented economic decline in 2007 and 2008
contributed to the losses at Ensign and its ultimate failure, it is clear the Board and
management failed to understand, control, and respond to the risks created by its
own actions and strategies.




                                                                                          15
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


B. NCUA Supervision of Ensign Federal Credit Union

We determined examiners did not adequately assess critical risks created by
management decisions and strategies related to concentration, credit, liquidity, and
profitability. Further, we believe examiners did not aggressively pursue a timely
resolution to concerns raised in examinations, resulting in missed opportunities to
mitigate those risks and limit NCUSIF exposure.

Supervisory Efforts to Identify and Resolve Key Risks Were Not Adequate or Timely

Examiners did not adequately or consistently identify key risks at Ensign and failed
to appropriately downgrade the CAMEL components in a timely manner, resulting in
a lack of focus, communication, and attention on growing risks. Further, they did not
aggressively monitor corrective actions in a timely or effective manner. Examples
include:

       Examiners rated Ensign a composite CAMEL 2 and 1 in the 2004 and 2006
        exams, respectively. The factors that were determined to be the ultimate
        causes of failure, including management strategies and high real estate loan
        concentrations, were present in all examinations issued during the years in
        the scope of this MLR.

       For the 2006 NCUA examination, examiners assigned a CAMEL 1 rating to
        the Asset Liability Management (ALM) component and stated in the report the
        Credit Union had “active and sound ALM oversight.” Our review of the Board
        minutes and examiner workpapers, however, determined the ALM oversight
        in the 2006 examination was consistent with the ALM oversight in 2007
        examination when examiners downgraded this component to a CAMEL 3.

       Examiners identified the risk in the real estate loan concentration in their
        assessment of interest rate risk as early as 2005; however, examiners
        indicated the risk was mitigated by the appropriate ALM practices and did not
        provide sufficient evidence supporting that conclusion.

       The “Capital” component of the CAMEL rating was rated a 1 until the 2008
        examination, even after the examiners identified the ALM process as less
        than adequate in the 2007 examination. Given the continuing decline in the
        performance of the Credit Union, we believe this rating was not well
        supported.

       “Management” was downgraded to a CAMEL 3 in the 2007 examination, in
        which an extensive DOR noted significant issues with management oversight,
        including deficient policies, inadequate monitoring, and incomplete reporting.


                                                                                   16
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


        A CAMEL rating of 3 indicates that, “management and board performance
        needs improvement or risk management practices are less than satisfactory”
        and a CAMEL rating of 4 indicates,” management and board performance
        needs improvement or risk management practices are inadequate”. Given
        the seriousness of the management concerns expressed in the DOR and the
        accompanying decline in the performance of the Credit Union, we believe the
        CAMEL 3 rating for the Management component was not appropriate and did
        not focus enough attention on management‟s competence.

       The December 31, 2008, examination resulted in a composite CAMEL 4
        rating; however, the language in the examination stated:

               “We feel the overall financial and operational condition of your credit
               union is of such supervisory concern, that a high potential for failure
               within the next 12 months exists.”

        We believe this statement indicates a composite CAMEL 5 rating would have
        been more appropriate. NCUA‟s internal Quality Control Review (QCR) of
        this examination also questioned why the examination did not result in a
        CAMEL 5 rating; however, the quality control reviewer still agreed with the
        overall examination results.

       The 2007 examination included an extensive DOR, as noted above. In the
        off-site June 2008 examination that followed, it was noted that Ensign had not
        yet complied with the 2007 DOR with regard to concentration limits, a
        moratorium on 30 to 40-year fixed rate mortgages, and updating the ALLL
        methodology as directed for qualitative and environmental factors based on
        current market conditions and trends. Given the significance of these issues
        in the failure of Ensign, we believe more aggressive follow-up action was
        warranted.

Additionally, we did not find consistent evidence of Supervisory Examiner (SE)
review of examination workpapers prepared by field examiners, nor documented
concurrence on findings and CAMEL ratings prior to report issuance. We further
noted that the QCR process is done on a sample basis after an examination is
finalized and communicated with management, and that the scope and quality of the
SE review of the QCR varies between regions.

As noted in the NCUA Letter to credit unions on the CAMEL Rating System dated
December 2007, this system is a tool to evaluate a credit union‟s performance and
risk profile, and “examiners are expected to used their professional judgment and
consider both qualitative and quantitative factors when analyzing a credit union‟s
performance.” NCUA examiners followed the total analyses and risk-focused


                                                                                         17
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


examination process, as well as their professional judgment, to determine and guide
their assessment of Ensign operations, safety, and soundness.

Until the December 31, 2007, examination, Ensign received composite CAMEL
ratings of 1 or 2, indicating a long track record of strong performance. The
December 2007 examination identified several problem areas and deteriorating
performance, resulting in a downgrade from a composite CAMEL 1 to a CAMEL 3
rating. Ensign management did not correct the problems, therefore examiners
further downgraded the Credit Union in December 2008 to a composite CAMEL 4,
and finally to a composite CAMEL 5 in March 2009.

The rapid decline of Ensign‟s CAMEL rating for the period from September 2004
through March 2009 is detailed in Table 1 (below):

Table 1

Examination
                             Sept-04          June-06          Dec-07            Dec-08          Mar-09
Date
Completion Date               1/20/05          9/14/06         2/28/08          2/27/09          6/30/09
Contact Type16                  10               10              10                10               22

CAMEL
                                  2                  1             3                 4               5
Composite

Capital/Net Worth                 1                  1             1                 4               5
Asset Quality                     2                  1             2                 4               5
Management                        2                  2             3                 4               5
Earnings                          2                  2             3                 5               5
Liquidity/ALM                     1                  1             3                 5               5

In addition to the examinations detailed above, examiners also conducted a limited
scope examination in 2007; three limited scope examinations in 2008, and two
limited scope examinations in 2009. These examinations were conducted on-site to
follow up on problems identified during previous examinations and to monitor the
performance of the Credit Union and its management.




16
  The NCUA uses various work classification codes (WCC) to standardize the types of examinations performed.
An examination with a WCC “10” is a regular examination of a federally insured credit union. An examination
with a WCC “22” is an on-site supervision of a federal credit union. Limited scope examinations are generally
conducted to follow up on specific problems identified in previous examinations.

                                                                                                          18
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Observations

NCUA‟s total analysis and risk-focused examination process guides examiner
judgment by providing the requisite and appropriate tools and guidance with which to
assess the safety and soundness of credit union operations and any risk to the
NCUSIF. However, we believe examiners did not adequately or consistently identify
critical risks associated with Ensign‟s real estate loan program. Consequently, the
examiners failed to appropriately downgrade the CAMEL components and
aggressively monitor corrective actions in a timely manner. The supervision of
Ensign highlights a lax review process that warrants consideration of a documented
secondary review by the SE of the final CAMEL ratings. A secondary review prior to
issuance to credit union management would ensure examination evidence gathered
is sufficient, competent, and relevant, to reasonably support the CAMEL ratings

Furthermore, NCUA management should consider reviewing and revising the QCR
process to better define the sampling strategy and criteria, the supervisory review
procedures, and the follow up requirements, thereby assuring that conclusions and
enforcement actions are properly supported and more consistent between regions.

Guidelines and Processes to Identify, Limit, Analyze, and Monitor Concentration
Risk Exposures are Inadequate

Loan concentrations are not clearly identified and analyzed, nor are reasonable
range limits established by the NCUA systematically monitored. In addition, the risk
associated with the concentrations does not appear to have been considered in
establishing the CAMEL ratings during the examinations.

There is a lack of clear guidance on acceptable loan concentration ranges for both
examiners and credit unions. Examiners noted high real estate loan concentrations
as early as 2005, and required Ensign to establish reduced concentration limits for
real estate loans in the 2007 DOR. NCUA guidelines do not specify appropriate
concentration ranges, so this directive was not sufficiently clear to either Ensign or
examiners in monitoring compliance.

In our opinion, credit unions have too much flexibility in developing their lending
policies and risk profile related to concentrations. The competitive market conditions
that surrounded the real estate boom encouraged lenient lending policies and
resulted in excessive risk taking. More defined concentration limits would serve to
limit this risk exposure.

Observations

Examiner guidelines state that indicators such as concentration activities can serve
as triggers of changing risk and possible causes for future problems. Based on loan

                                                                                    19
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


concentrations not adequately identified and considered in Ensign‟s loan portfolio,
we believe the risk-focused examination process would benefit from the
development of a stronger more specific process to better identify, analyze, and
monitor loan concentrations during examinations, as well as between examinations.
Finally, and most importantly, NCUA management should consider whether to
propose and/or change regulatory guidance to establish limits or other controls for
concentrations that pose an unacceptable safety and soundness risk and determine
an appropriate range of examiner response to high risk concentrations. The
development of asset concentration guidelines would assist both examiners and
credit unions in identifying and monitoring the associated risks.

More Regulatory Emphasis Needed on Quarterly Monitoring of Call Reports

Ensign achieved a composite CAMEL 1 rating in June 2006, then dropped
dramatically to a composite CAMEL 3 rating during the December 2007
examination. Further rapid decline was noted as Ensign dropped to a composite
CAMEL 4 rating in the December 2008 examination and finally to a composite
CAMEL 5 rating just three months later at the conclusion of the March 31, 2009
(Effective Date) examination.

Call Reports are filed quarterly and are important trend and issue indicators.
Quarterly monitoring of the Call Reports is part of the NCUA examination process
and such a rapid decline would be indicated in these reports, particularly in 2007,
when economic conditions changed and the Nevada real estate market dropped. It
does not appear that deteriorating trends and issues were detected nor was there
any contact with Ensign until the next normally scheduled examination in December
2007, eighteen months later, when the problems were nearing the crisis point.

Because of inadequate monitoring of quarterly financial results, Ensign‟s dramatic
decline was not detected by examiners soon enough to make the course changes
that could have minimized the loss. In addition, the questionnaire and checklists
supporting the examiner‟s quarterly review of 5300 Call Reports did not sufficiently
document issues identified and the analysis performed.

Observations

One method NCUA examiners use to monitor the financial condition and the
progress of FISCUs are through 5300 Call Reports. Specifically, NCUA‟s risk-
focused program places a reliance on examiners using the 5300 Risk Parameters
tool to assist in off-site monitoring. We believe improvements could be made in the
off-site monitoring process if NCUA management were to develop and issue a
national instruction to all regional offices placing more emphasis on quarterly
monitoring of 5300 Call Reports. The instruction should outline the process and
include specific monitoring triggers to more easily „red flag‟ areas to be investigated,

                                                                                       20
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


as well as provide a specific time allocation. In addition, we believe any newly
developed national instruction should include the requirement that examiners
document and retain the specific procedures and analysis performed during their
quarterly review of 5300 Call Reports.

Management Competency, Risk Management Practices, and Due Diligence
Assessment Documentation is Lacking

No formal documentation was found to determine how management competence
and overall risk management practices were analyzed and assessed by the
examiners.

Based on our review of the Board packets and examiner workpapers, it was evident
that management and the Board lacked understanding of appropriate risk
management practices or the underlying risks inherent in their growth strategies,
which played a large role in the demise of Ensign, most notably:

       There was no comprehensive business plan or model to guide strategic
        decisions;

       Policies were adopted that increased rather than limited risk, such as the
        policies allowing for 80 percent concentration in real estate loans and 100
        percent loan-to-value HELOCs. No policy was developed to manage OREO
        properties;

       ALLL strategy was faulty and did not include environmental and quality
        considerations;

       Risk management practices and monitoring reports were inadequate and not
        well understood;

       Management allowed inaccurate and incomplete financial, credit, and budget
        reporting; an ineffective collection process; infrequent ALCO meetings; and
        failed to comply with the 2007 DOR;

       Management and the Board failed to respond in an effective and timely way
        to the economic downturn; and

       Poor asset and liquidity management practices were employed, including the
        decision to build more branches and take on more operating expenses, as
        well as the decision to take on a very large deposit and no associated plan
        when the deposit was withdrawn.



                                                                                   21
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Additionally, Board meeting minutes were general in nature and did not fully explain
or support risk management practices and policy decisions.

We found no evidence in examination files of a focused assessment on
management‟s competence and risk management practices, both of which factored
significantly in the failure of Ensign. Further, no evidence was found to support any
form of due diligence on the part of Ensign management or examiners related to the
policies and strategies they adopted.

Observations

Evaluating the quality and the effectiveness of management is an important part of
the total analysis process and a major examination objective. Examiners evaluate
the quality of management by determining the effectiveness of the Board, the
committees, and operational management. Effective management includes
providing adequate support, planning, and oversight when the credit union enters
new business ventures, or begins offering a new product and/or service. In addition,
management must perform due diligence to ensure that products and services
coincide with the credit union‟s overall risk profile.

Because our review found that Ensign management did not understand appropriate
risk management practices or the underlying risks inherent in their growth strategies,
we believe NCUA management should consider establishing a renewed emphasis
on evaluating management‟s due diligence over new or fast growing programs, as
well as other areas of emphasis, with particular attention to the risk the program or
area may pose to the credit union‟s safety and soundness.




                                                                                   22
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Appendix A

Examination History

The following provides NCUA supervision contacts conducted from September 30,
2004, through March 31, 2009, for Ensign Federal Credit Union. The information
provided is limited to key findings and Documents of Resolution items associated
with management‟s capability; Board oversight; and concentration, credit, and
liquidity risk.

  September 30,          Contact Type - 10
  2004                   Completed January 2005
  Effective Date         CAMEL Rating: 2/12221
  Examiners concluded that Ensign Federal Credit Union was fundamentally
  sound.
      Examiners noted the Credit Union engages in risk-based pricing and
         required the lending policy be updated to incorporate elements of the risk
         based program.
      Examiners identified several examples of non-amortizing loans and
         recommended these loans be monitored to ensure they amortize in
         accordance with the loan agreement, or should be charged off.
      Examiners recommended the ALLL policy be revised to address member
         business loans, which were then included within the real estate loan pool.
      Examiners noted that accounting for troubled debt restructuring (TDR)
         was not in accordance with generally accepted accounting principles
         (GAAP), and stated that Ensign must develop reporting methods that
         would allow it to monitor TDRs and report delinquency according to
         GAAP.
      Examiners commended management for “strong performance in the area
         of accounting and recordkeeping, ALM oversight and analysis, as well as
         solid performance in mitigating loan losses.”
  DOR – Examiners required the Credit Union to:
      In the area of credit risk: Complete the profitability analysis of risk-based
         loans to ensure each tier generates adequate income to cover
         underwriting and servicing costs, operating expenses, and resultant loan
         losses. Adjust pricing strategies as required to ensure each tier produces
         sufficient income.




                                                                                   23
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


                      Contact Type - 10
  June 30, 2006
                      Completed September 2006
  Effective Date
                      CAMEL Rating: 1/11221
  Examiners concluded that Ensign Federal Credit Union was sound.
      The prior examination noted issues requiring attention, including
       enhanced oversight of business lending, information systems and follow-
       up for various risk assessments, and the need for analyzing the risk-based
       lending program. Examiners noted management addressed all concerns
       in an appropriate and timely manner.
      In the area of credit risk, examiners noted, “solid underwriting, low
       delinquency, and minimal loan losses reflect a sound loan portfolio.”
      Examiners noted moderate interest rate risk resulting from higher total
       real estate loan portfolio (10 percent growth since the prior examination),
       as well as the higher level of fixed rate real estate loans (25 percent
       growth since the prior examination), but concluded that the risk was
       mitigated by “active and sound ALM oversight.”
      Examiners concluded that liquidity risk was mitigated with “solid
       oversight, monitoring controls, and established secondary liquidity
       sources.”
  DOR – Examiners issued a DOR; however, all issues related to compliance risk.

  December 31,           Contact Type - 10
  2007                   Completed February 2008
  Effective Date         CAMEL Rating: 3/12333
  Examiners noted heightened concern in several areas:
      Examiners noted loan growth in the past year (8 percent annualized),
         combined with declining financial real estate markets – particularly so in
         the Las Vegas metropolitan area – resulted in excessive concentration
         risk, unacceptable interest rate risk, and heightened liquidity risk.
      Examiners noted violations of regulatory limits for member business loans
         – in aggregate and granted to one member – as well as construction and
         development (C&D) loans.
      Regarding strategic risk, examiners noted, “The internal control systems
         at Ensign Federal Credit Union are not operating as intended. Staff has
         violated regulatory lending limits and consistently operates outside of
         established Board limits with respect to interest rate and liquidity risks.
         This is unacceptable. The Board must ensure compliance with established
         risk parameters and regulatory limits.”
      Regarding interest rate risk, examiners noted the following:
             o Ensign operated outside of established ALM and liquidity limits for
                 most of the previous 18 months. The Examination Overview stated
                 that “Quarterly ALM reports clearly identify noncompliance for the
                 past year, yet there are no documented efforts to address these

                                                                                   24
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


                 concerns; rather, you exacerbated the situation by continuing to
                 book real estate loans through most of 2007, resulting in even
                 higher interest rate risk.”
               o There was no evidence that violations of IRR policy limits were
                 presented or discussed at Board meetings. There was also no
                 documentation of a corrective plan by management to bring the
                 balance sheet structure within policy limits.
               o The Board received limited information regarding the loan and
                 deposit structure of the balance sheet.
               o The ALM model for IRR calculation was significantly inaccurate for
                 30-year and 40-year mortgages. As a result, the risk measures
                 calculated were understated and the IRR was higher than reported
                 to ALCO committee members.

                    (in millions)                30-year mortgages   40-year mortgages
                    Used in risk model           $38.1               $3.5
                    Actual                       $13.3               $21.0

            o Ensign‟s risk monitoring and reporting processes for the real estate
                loan portfolio were weak. Examiners specifically cited the following
                items: concentration risk concerns, geographical concerns, and a
                portfolio shift from 30-year to 40-year loan maturities, and from
                adjustable to fixed-rate mortgages. Further, as noted above,
                management was unaware of how large the 40-year mortgage
                concentration had grown.
         Regarding liquidity risk, examiners noted the following:
            o Ensign operated outside of liquidity guidelines for almost all of
                2007.
            o Significant decline in shares of $12.5 million (11.5 percent) over the
                year resulted in the Credit Union utilizing almost all available
                Federal Home Loan Bank (FHLB) borrowing and over 1/3 of the
                corporate overnight line of credit.
            o The decrease in shares, combined with the 8 percent annual
                increase in loans, caused liquidity risk to be rated as high.
         Regarding credit risk, examiners noted the following:
            o The ALLL account was underfunded. Examiners required
                additional funding of $435K.
            o Ensign did not include any environmental or qualitative factors in
                the ALLL calculation, although the real estate market was declining
                and loan delinquencies were rising.
            o Examiners concluded that Ensign‟s balance sheet had high
                concentration risk. Specifically, the Credit Union‟s high
                concentration of real estate loans was unsafe and unsound. Limits


                                                                                         25
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


                of up to 80 pecent of loans in first mortgages were deemed
                inappropriate benchmarks. The examiners required that prudent
                limits be established as a percentage of total assets and net worth,
                and based on the Credit Union‟s ability to measure and mitigate
                risk.
  DOR – Examiners required the Credit Union to respond to the following items
  and report on corrective actions taken. Note that other compliance related items
  were included in this and other DORs; only items that relate to management‟s
  capability, Board oversight, and concentration, credit and liquidity risk are listed
  here:
      In the area of asset/liability management:
             o Establish reduced concentration limits for the real estate loan
                portfolio, addressing credit risk tiers, fixed vs. variable rate loans,
                and other relevant factors.
             o Develop and provide to the Board of Directors an action plan with
                alternative strategies for reducing interest rate and concentration
                risk. Ensure the plan includes current and future impacts to
                earnings and capital.
             o Meet and discuss interest rate measures on a monthly basis until
                such time as actual interest rate risk measures fall within existing
                Board-established risk limits, and ensure IRR levels are reduced
                sufficiently to conform to risk limits established in the ALM policy.
             o Cease adding any 30 or 40-year fixed rate mortgages to the loan
                portfolio until such time as the Credit Union is in compliance with
                established interest rate risk and liquidity risk measures, as well as
                reduced concentration limits.
             o Correct all items identified in the Examiner's Findings report
                regarding the ALM Risk model to help ensure inputs and
                assumptions are reviewed and validated.
      In the area of liquidity management:
             o Ensure the Credit Union complies with established limits as outlined
                in Board-approved liquidity policies. Implement strategies (i.e.
                share pricing, share growth, etc) to decrease reliance on
                borrowings and improve the Credit Union‟s overall liquidity position.
      In the area of risk monitoring and mitigation:
             o Implement appropriate risk monitoring and reporting procedures to
                identify risk in the real estate loan portfolio. Ensure reports identify
                relevant risk factors, such as loan-to value, credit scores,
                geographical concentration, loan products, etc.
      In the area of Allowance for Loan and Lease Losses:
             o Fund the Allowance for Loan and Lease Losses account for
                $435,000.



                                                                                       26
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


              o Update the ALLL funding methodology to incorporate qualitative
                 and environmental factors based on current market conditions and
                 trends. Apply these factors specifically to the real estate portfolio to
                 ensure sufficient reserves are maintained for potential loan losses.
                 Update the assessment in the future to ensure the account remains
                 fully funded.
         In the area of Board reports and monitoring:
              o Expand the monthly financial reporting package provided to the
                 Board to include the following:
                      Investment report - listing of all current investments,
                         maturity, market values, and investment transactions.
                      Loan report - number and amount of new loans granted, loan
                         applications rejected, stratification of existing loan portfolio,
                         business and real estate loans in process, loans sold.
                      Deposit report - listing of current deposit categories with
                         stratification by tier for money market accounts, and
                         stratification of certificate accounts by remaining maturity.
                      Borrowing report - list of all borrowed funds, collateral
                         pledged against borrowings, remaining capacity, and
                         transactions during the month.
                      Compliance - target ranges for ALM - expand the existing
                         report to include NEV and NII limits specified in the policy.

                         Contact Type - 22
  June 30, 2008
                         Completed August 2008
  Effective Date
                         CAMEL Rating: 3/12333
  The purpose of the examination was to monitor Ensign‟s progress in responding
  to the previous DOR from the 2007 full scope examination.
       Regarding concentration risk, examiners noted the following:
             o Ensign was required by the previous DOR to establish prudent
                limits for real estate loans as a percentage of total assets and net
                worth, but had not done so. In fact, the ALM minutes indicate real
                estate limitations were discussed, but the committee declined to set
                concentration limits.
             o The monthly compliance report provided to the Board still showed
                the maximum limit for mortgage loans as 80 percent of total loans.
             o The Liquidity Risk section of the lending policy had been updated in
                April to set a 60 percent limit of real estate loans to assets.
                Examiners considered this limit “excessive and only slightly lower
                than concentration levels when we identified our initial concerns in
                December.” This was especially excessive given current trends in
                the real estate market.
       Regarding interest rate risk, examiners noted the following:


                                                                                         27
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


              o Interest rate risk was reduced and for the first time in nearly two
                 years was within established limits. However, the main cause of
                 improved results was a change in model assumptions. Examiners
                 advised Ensign that “Changing assumptions does not mitigate risk
                 – even though output reports may show compliance with board
                 limits. Changes to model assumptions should be documented and
                 approved by the board prior to implementation.”
              o Examiners recommended the minutes for the ALM committee
                 should be expanded to include: strategies for dealing with IRR,
                 impacts of volatile shares, strategies for mitigating risk of losing
                 high-balance shares, borrowing activity, and investment strategies
                 and decisions.
         Regarding credit risk, examiners noted the following:
              o Delinquency increased sharply in 2008, causing concern and
                 requiring action to mitigate increased risk.
              o Reportable delinquency was 3 percent of total loans as of June,
                 including $2 million of workout loans ($1.2 million which is a single
                 real estate loan).
              o Delinquency also increased in the non-reportable “1-2 month”
                 category and is 3.2 percent of total loans. This brings the total to
                 6.2 percent of loans over 30 days delinquent - indicating high credit
                 risk in the portfolio.
         Regarding liquidity risk, examiners noted the following:
              o Overall liquidity was improved, with shares growing by $24 million.
                 This growth primarily consisted of money market shares and one
                 $14 million deposit by Provident Trust Group.
              o Concerns included: concentration of $29 million in shares held by
                 28 member accounts, volatility of high balance uninsured shares in
                 the current economic environment, increasing reliance on noncore
                 deposits, and alternatives if secondary lines of credit were
                 limited/closed.
         Regarding risk management and monitoring, examiners noted the
          following:
              o Risk management reporting processes need to be more robust to
                 fully identify and quantify risk in the real estate portfolio.
              o The loan policy still allows for HELOCs up to 100 percent loan-to-
                 value, which are unsafe and unsound.
         Regarding Allowance for Loan and Lease Losses, examiners noted the
          following:
              o Ensign‟s method of basing loss factors on a 3-year period did not
                 accurately reflect current trends or conditions of the marketplace.
              o Ensign‟s ALLL methodology still did not include funding based on
                 qualitative and environmental factors, as required per the previous


                                                                                     28
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


                 DOR.
         Regarding OREO and nonearning assets, examiners noted the
          following:
              o Ensign had three OREO properties totaling $4 million on the
                 balance sheet, and additional OREO was deemed to be likely in the
                 near future. The examiners required that Ensign establish policies
                 and procedures for handling the OREO portfolio.
              o As shown, nonearning assets represented approximately 13% of
                 total assets:

                                                 Percent of Total Assets
                    Fixed Assets                 7.9%
                    OREO                         4.0%
                    Other Non-Earning            1.0%
                    Total                        12.9%, or $17 million

               o As a comparison, examiners noted that most institutions of Ensign‟s
                 asset size had only 3 percent nonearning assets.

  DOR – Examiners required the Credit Union to respond to the following items
  and report on corrective actions taken:
      In the area of concentration risk and risk management:
            o Some repeated items from the previous DOR, which were still
               applicable and still needed to be addressed, including:
                    Establish documented concentration limits for real estate
                       loans
                    Maintain moratorium on 30 or 40- year fixed rate mortgages
            o Establish detailed risk monitoring and reporting procedures for real
               estate loan portfolio. Ensure reports identify relevant risk factors,
               such as loan-to value, credit scores, geographical concentration,
               loan products, etc., as well as address risk from layering of multiple
               risk elements. Ensure the Credit Union validates source data for
               determining current market values.
            o Develop and document specific risk mitigation strategies for high
               risk loan pools. Document review and analysis of alternative
               strategies for reducing interest rate and concentration risk.
      In the area of credit risk:
            o As required in the previous DOR: update the ALLL funding
               methodology to incorporate qualitative and environmental factors
               based on current market conditions and trends. Apply these factors
               specifically to the real estate portfolio to ensure sufficient reserves
               are maintained for potential loan losses. Update the assessment in
               the future to ensure the account remains fully funded.


                                                                                     29
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


              o Ensure all loans in the portfolio that qualify as Troubled Debt
                 Restructuring (TDR) are properly identified, and are included in the
                 monthly delinquency reporting until such time as the borrower has
                 made six timely consecutive monthly payments at the restructured
                 payment amount.
         In the area of Other Real Estate Owned:
              o Develop a policy for handling OREO, which includes proper initial
                 recording, subsequent measurement, semi-annual appraisals, and
                 proper recordkeeping.

  December 31,            Contact Type - 10
  2008                    Completed February 2009
  Effective Date          CAMEL Rating: 4/44455
  Examiners noted deteriorating financial condition, and assessed risk as “high” in
  six of the seven risk areas. The overall CAMEL rating was also downgraded to a
  4 at this time. Examiners noted that the “overall financial and operational
  condition of your credit union is of such supervisory concern, that a high
  potential for failure within the next 12 months exists. Management and
  officials have resumed their search for a merger partner. Given your current
  financial condition, associated trends, and the outlook for 2009, we feel it is in the
  best interest of your members to continue to actively pursue a merger.”
  Furthermore, although examiners noted economic conditions contributed to
  Ensign‟s problems, they also determined that “a lack of sound planning on the
  part of management and officials contributed significantly to the problems.”
       Regarding liquidity risk, examiners noted the following:
              o Ensign had been operating in crisis mode for a two-week period in
                 January of 2009, which was caused when the Provident Trust
                 Group requested to close their $12 million share account. Funds
                 were unavailable to meet this request, and management had to
                 borrow $12.5 million from the NCUA Central Liquidity Fund.
              o Liquidity risk remains extremely high as management proved
                 unable to manage unplanned decreases and/or changes in funding
                 sources, and also failed to recognize the interrelationship between
                 interest rate risk management and liquidity.
              o Examiners concluded that the liquidity issues have been an
                 ongoing concern caused by poor planning:
                      During 2007, total shares declined by $13 million while the
                        loan portfolio increased by $9 million. This increased the
                        loan to share ratio to 118 percent and resulted in additional
                        borrowings of $20 million.
                      Between June 30 and December 31, 2008, total shares
                        decreased by $18 million, or 14 percent. The greatest
                        decline was in CDs (decline of $9 million).


                                                                                        30
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


            o The Board and ALCO minutes had limited discussions regarding
                borrowing analysis, and most borrowings had been unplanned.
            o Examiners strongly suggested that Ensign limit and closely monitor
                lending volume in the near future.
         Regarding strategic risk, examiners noted the following:
            o Ensign‟s total net worth declined from $12.9 million to $8.9 million
                during 2008, which represents a 31 percent decline in one year.
                The net worth ratio declined from 9.56 percent to 7.32 percent
                during 2008.
            o Furthermore, an updated appraisal on an OREO property obtained
                in the first quarter of 2009 would require an additional write down of
                $1.5 million. Projected new worth ratio by the end of February
                2009 was 5.5 percent.
            o With a net worth ratio below 6 percent, the Credit Union would be
                subject to Prompt Corrective Action and NCUA would require a Net
                Worth Restoration Plan by June 14, 2009.
            o In reviewing net return on assets, examiners noted that in three of
                the previous four years, Ensign‟s net return was aided by non-
                operating gains, which in some cases substantially affected net
                income.
            o As of the examination, examiners noted that Ensign would likely
                operate at a net loss from basic operations (before PLLL) in 2009.
                In addition, Ensign had budgeted for a further increase in operating
                expenses due to the addition of a fifth branch.
            o Examiners concluded that management had been operating with no
                business plan or business model. There was no evidence of a
                formal plan to address the issues the Credit Union faced or to
                reverse the negative trends.
            o The Board minutes were reviewed and found “lacking in detailed
                discussions. We did not see evidence that management and
                officials considered all risk factors prior to implementing strategic
                initiatives.”
            o As examples of poor strategic decisions, examiners cited both
                Ensign‟s unsound loan concentrations, and over 12 percent of the
                Credit Union‟s total assets being invested in nonearning assets.
            o Land was purchased in North Las Vegas but never used by Ensign.
                As of the examination, it had been on the market for one year at a
                17 percent discount to cost, with no interested buyers. The total
                investment was $1.1 million, and examiners believed the Credit
                Union could recognize a potential loss of several hundred thousand
                dollars.
         Regarding credit risk, examiners noted the following:
            o Delinquency and charge-offs were increasing at an alarming rate.
            o As of September 30, 2008, real estate loans totaled $78.9 million,

                                                                                     31
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


                or 79 percent of the total loan portfolio. Examiners noted the
                decline in the Nevada real estate market of 25-30 percent, with no
                signs of reversal in the near future.
            o Examiners believe that the risk rating model used for the real estate
                loan portfolio was “somewhat liberal.”
            o Examiners had concerns regarding home equity loans where
                Ensign was not in first lien position. For loans of this type where the
                credit score was below 600 ($1.9 million), the average loan-to-value
                exceeded 100 percent.
            o Examiners specifically noted two Member Business Loans that
                were of particular concern:
                     One was a loan in a workout stage that would require an
                        additional impairment of $200,000 based on a recent
                        appraisal.
                     The other was an OREO property that was previously
                        appraised in June 2008 at $4.4 million with a carrying
                        balance of $3.6 million. However, a recent appraisal in
                        February 2009 gave a value of $2.15 million, which would
                        require an additional write down of $1.5 million.
            o Workout loans were not coded on the Credit Union‟s system until
                September 2008. There was no policy in place for workout loans
                regarding loan-to-value limits, reappraisal, title search, credit score,
                stability of employment, etc.
            o Examiners recommended that management establish a mandatory
                reserve of at least 5 percent on this pool of loans.
       Regarding interest rate risk, examiners noted the following:
            o As of late January 2009, the ALCO had not held a meeting since
                October 2008. Examiners noted that “Given Ensign‟s size,
                complexity, and IRR and Liquidity risk profiles, we would expect
                ALCO to meet monthly, and considering recent events, perhaps
                weekly.”
  DOR – The DOR was extensive and required the Credit Union to expedite pursuit
  of a merger partner, revisiting the current list and seeking additional candidates.
  The Credit Union was also required to respond to the following items and report
  on corrective actions taken:
       In the area of liquidity risk:
            o Assign responsibility for monitoring and documenting daily cash
                management, short-term liquidity (i.e. weekly/monthly), and balance
                sheet trend analysis.
            o Develop a written net cash flow analysis (i.e. minimum period of six
                months) with emphasis placed on the next 90 days to:
                     Analyze projected sources and uses of funds;
                     Identify the existence and potential existence of future cash
                        flow strains; and

                                                                                       32
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


                       Identify emerging liquidity pressures.
              o Evaluate available liquidity contingency resources and prioritize and
                 evaluate them in terms of: available amount, reliability, cost,
                 maturity, source, stability, and timeframe needed to obtain funds.
              o Amend the liquidity policy to clearly define responsibilities to ensure
                 accountability.
         In the area of business planning/profitability/net worth:
              o Monitor the Credit Union‟s net worth closely, and become familiar
                 with Prompt Corrective Action (PCA) provisions should net worth
                 decrease further.
              o Develop a comprehensive, written business plan.
              o Reevaluate and amend the 2009 operating budget.
              o Document detailed discussions of major areas of concern (liquidity,
                 profitability, credit risk), and the actions taken to address these
                 issues at each board meeting.
         In the area of credit risk:
              o Summarize the credit profile characteristics of the real estate loan
                 portfolio. Separate second mortgages by first lien position (Ensign
                 has 1st lien vs. not).
              o Establish a watch list for any loans that exhibit a declining risk
                 rating or the member has demonstrated reduced cash flow.
                 Establish a reserve in the allowance for loan losses account for any
                 loans where the risk rating has declined to at least a sub-standard
                 level.
              o Develop a separate report for work out loans, including loan data,
                 delinquency (if any) prior to the workout, credit score, loan-to-value,
                 current status (performing/nonperforming), reason for workout.
              o Revise workout policies to require a complete analysis of the
                 borrower‟s capacity to repay under the terms of the workout
                 agreement.
              o Establish a reserve for workout loans for funding the allowance for
                 loan losses. A reserve of 5 percent of the outstanding balance was
                 recommended initially.
         In the area of interest rate risk:
              o Continue to take appropriate action(s) to mitigate interest rate risk
                 (e.g. sell mortgage originations, adjust mortgage rates, reduce the
                 first mortgage concentration, etc).
              o Integrate interest rate risk management with strategic and financial
                 planning.
              o Amend the ALM policy to require monthly ALCO meetings. Expand
                 ALCO to include key operating units (i.e. lending, operations, and
                 marketing) since ALM affects the entire scope of the Credit Union‟s
                 operation. Record all pertinent activities/discussions in the ALCO
                 minutes. Provide the Board of Directors and ALCO an ALM

                                                                                       33
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


                 summary.
               o Conduct a review of ALM model assumptions to ensure forecasted
                 earnings projections provide a reasonable estimate of potential
                 earnings exposure.

                          Contact Type - 22
  March 31, 2009
                          Completed June 2009
  Effective Date
                          CAMEL Rating: 5/55555
  This examination was a follow-up supervision contact to the December 31, 2008
  (Effective Date) examination, in order to determine management‟s compliance
  with the LUA and DOR issued during that examination. Examiners concluded
  that the financial condition of Ensign had continued to deteriorate significantly.
  According to the Examination Overview, “Ensign FCU has no real prospects of
  being able to restore profitability and build net worth to adequately capitalized
  levels within a reasonable period of time.” A merger was considered imminent at
  this time.
       Regarding net worth, examiners noted the following:
              o From December 2008 through May 2009, Ensign‟s net worth
                 declined from 7.32 percent to 1.69 percent.
              o With a net worth ratio of 4.7 percent as of March 31, 2009, Ensign
                 fell under the PCA category of an “undercapitalized” institution.
                 Management submitted a Net Worth Restoration Plan, which
                 indicated they would be unable to establish a reasonable plan and
                 would instead seek a merger.
              o Examiners revisited the environmental reserve for real estate loans
                 in Ensign‟s ALLL methodology, noting the reserve had remained at
                 $300,000, which is less than one half percent of the Credit Union‟s
                 total real estate loan portfolio. Credit Union management agreed
                 that “the risk factors included in this methodology are liberal and
                 should be increased.”
              o Examiners recommended the following increases to the factors:

                    Risk Score                   Current Factor   New Factor
                    9-12                         10%              15%
                    6-8                          3%               10%
                    3-5                          0%               5%

                   These changes would increase the ALLL by approximately $2.5
                   million, which would essentially eliminate all remaining capital.

               o Ensign was deemed to be an insolvent institution, with a solvency
                 ratio of 98.23% as of May 31, 2009.
               o Examiners determined the optimal resolution for Ensign would be to
                 pursue a liquidation and purchase and assumption.

                                                                                       34
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


        Regarding delinquency, examiners noted the following:
            o Delinquency in dollars had increased every month since the last
                examination, despite charge-offs of over $600,000 during the first
                five months of 2009.
      Regarding profitability, examiners noted the following:
            o Ensign experienced a net loss of $7.1 million during the first five
                months of 2009.
            o While the majority of these losses were due to provision expense,
                the Credit Union also lost an average of over $50,000 per month
                from basic operations before taking into account the provision
                expense.
            o Examiners concluded that the reason for the operating losses was
                the large amount of nonearning assets the Credit Union possessed.
  DOR – The Credit Union was required to continue pursuit of a merger partner,
  and also to respond to the following items and report on corrective actions taken:
      Continue to monitor the Credit Union‟s net worth position closely.
      Terminate any unused lines of credit where the loan-to-value is over 80
         percent and the member‟s credit score has declined to 640 or less
      Continue to review staffing needs and operating expenses, making
         adjustments/reductions where necessary.
      In the area of allowance for loan and lease losses:
            o Update the environmental real estate loan report with respect to
                loan balances, market values, and credit scores.
            o Increase the reserve factors from their current levels. Examiners
                recommended the Credit Union use the factors given above. If
                Ensign were to use the factors recommended, the increase would
                be $2.5 million.
            o Increase the ALLL by the amount reflected after updating the
                environmental data and factors.
      In the area of asset liability management:
            o Conduct a review of ALM model assumptions to ensure forecasted
                earnings projections provide a reasonable estimate of potential
                earnings exposure.




                                                                                   35
Material Loss Review - Ensign Federal Credit Union
OIG-10-15


Appendix B

NCUA Management Comments




                                                     36
